Case: 19-14846

Date Filed: 07/14/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-14846-C

LEROY BANKS
Plaintiff-Appellant,
versus
DEPUTY ANTHONY TERRY,
Bibb County Sheriffs Department,
et al.,
Defendants,
DEPUTY STEPHEN FIELDS,
Bibb County Sheriffs Department,
TERRY ANTHONY,
Officer, Bibb County Sheriffs
Department,
Defendants-Appellees.

Appeal from the United States District Court
for the Middle District of Georgia

Before: WILSON and NEWSOM, Circuit Judges.
BY THE COURT:
Leroy Banks has filed a motion for reconsideration, pursuant to 11th Cir. R. 27-2, of the
April 27,2020, order denying his motion for leave to proceed in forma pauperis in his appeal from
the district court’s orders dismissing his 42 U.S.C. § 1983 complaint and denying his motion for
reconsideration of that order. Because Banks has not alleged any points of law or fact that were
overlooked or misapprehended in denying his motion, his motion for reconsideration is DENIED.

Case: 19-14846

Date Filed: 04/27/2020

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14846-C
LEROY BANKS,
Plaintiff-Appellant,
versus
DEPUTY ANTHONY TERRY,
Bibb County Sheriffs Department,
et al.,
Defendants,
DEPUTY STEPHEN FIELDS,
Bibb County Sheriffs Department,
TERRY ANTHONY,
Officer, Bibb County Sheriffs
Department,
Defendants - Appellees.
Appeal from the United States District Court
for the Middle District of Georgia
ORDER:
On November 26, 2018, Leroy Banks, a former Georgia prisoner, filed a pro se 42 U.S.C.
§ 1983 complaint against two police officers, alleging that the defendants used excessive force in
arresting him, and he was falsely arrested and imprisoned. As background, Mr. Banks filed an
identical complaint when he still was in prison, in April 2018, but it was dismissed before the
defendants were served, pursuant to the “three strikes provision” of 28 U.S.C. § 1915(g). The

Case: 19-14846

Date Filed: 04/27/2020

Page: 2 of 3

district court granted the defendants’ motion to dismiss and denied Mr. Banks leave to proceed in
forma pauperis (“IFP”) on appeal, which he now seeks in this Court.
Because Mr. Banks moves for IFP status, his appeal is subject to a frivolity
determination. See 28 U.S.C. 1915(e)(2)(B). An action is frivolous if it is without arguable
merit either in law or fact. Napier v. Preslicka, 314 F.3d 528, 531 (11th Cir. 2002).
Federal courts apply their forum state’s statute of limitations for personal injury actions
to actions brought pursuant to § 1983. Uboh v. Reno, 141 F.3d 1000, 1002 (11th Cir. 1998).
“[T]he proper limitations period for all Section 1983 actions in Georgia is the two-year
limitations period set forth in O.C.G.A. § 9-3-33.” Mullinax v. McElhenney, 817 F.2d 711, 716
n.2 (11th Cir. 1987). Nonetheless, federal law governs when a § 1983 action accrues. Id. at 716.
Under federal law, “the statute of limitations does not begin to run until the facts which would
support a cause of action are apparent or should be apparent to a person with a reasonably
prudent regard for his rights.” Rozar v. Mullis, 85 F.3d 556, 561-62 (11th Cir. 1996) (quotation
marks omitted).
The statute of limitations for false arrest and false imprisonment claims also is governed
by Georgia’s two-year limitations period. See Wallace v. Kato, 549 U.S. 384, 387 (2007). The
accrual of those claims for limitations purposes begins when the alleged false imprisonment
ends. Id. at 389. A false imprisonment ends once the victim is held pursuant to legal process,
“when, for example, he is bound over by a magistrate or arraigned on charges.” Id.
Georgia’s renewal statute concerns plaintiffs who filed a case within the limitations
period but discontinued or dismissed it, and it allows those plaintiffs to recommence the case
within six months after the discontinuance or dismissal, even if that falls after the limitations
period. See O.C.G.A. § 9-2-61(a). However, that renewal statute only applies to actions that are

2

Case: 19-14846

Date Filed: 04/27/2020

Page: 3 of 3

valid prior to dismissal, including having been served on the defendants. See Scott v. Muscogee
Cty., 949 F.2d 1122, 1123 (11th Cir. 1992).
Here, Mr. Banks’s excessive force claims accrued on October 18, 2016, when he was
allegedly handcuffed too tightly and placed in an excessively hot patrol car. See Rozar, 85 F.3d
at 561-62. Mr. Banks’s false arrest and imprisonment claims accrued on November 7, 2016,
when he was “bound over by [the] magistrate” on charges. See Wallace, 549 U.S. at 389. Thus,
Mr. Banks’s claims were time-barred after October 18, 2018, and November 7, 2018,
respectively. See Mullinax, 817 F.2d at 716 n.2. Further, Georgia’s renewal statute did not
apply to him because his previous action never was “valid,” as it never was served on the
defendants. 'See Scott, 949 F.2d at 1123. Accordingly, the complaint was time-barred, and, for
the same reasons, the district court properly denied Mr. Banks’s motion for reconsideration.
Mr. Banks’s IFP motion is DENIED.

/s/ Jill Pryor
UNITED STATES CIRCUIT JUDGE

3

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscourts.gov

David J. Smith
Clerk of Court

August 05, 2020
Clerk - Middle District of Georgia
U.S. District Court
475 MULBERRY ST
MACON, GA 31201
Appeal Number: 19-14846-C
Case Style: Leroy Banks v. Stephen Fields, et al
District Court Docket No: 5:18-cv-00435-MTT-CHW
The enclosed copy of the Clerk's Entry of Dismissal for failure to prosecute in the above
referenced appeal is issued as the mandate of this court. See 11th Cir. R. 41-4.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Walter Pollard, C
Phone #: (404) 335-6186
Enclosure(s)

DIS-2 Letter and Entry of Dismissal

JN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-14846-C

LEROY BANKS,
Plaintiff - Appellant,
versus
DEPUTY ANTHONY TERRY,
Bibb County Sheriffs Department,
et al.,
Defendants,
DEPUTY STEPHEN FIELDS,
Bibb County Sheriffs Department,
TERRY ANTHONY,
Officer, Bibb County Sheriffs
Department,
Defendants - Appellees.

Appeal from the United States District Court
for the Middle District of Georgia

ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R.42-l(b), this appeal is DISMISSED for
want of prosecution because the appellant Leroy Banks has failed to pay the filing and
docketing fees to the district court within the time fixed by the rules., effective August 05, 2020.
DAVID J. SMITH
Clerk of Court of the United States Court
of Appeals for the Eleventh Circuit
by: Walter Pollard, C, Deputy Clerk
FOR THE COURT - BY DIRECTION

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscourts.gov

David J. Smith
Clerk of Court

July 14, 2020
Leroy Banks
2029 LOWE ST
MACON, GA 31206
Appeal Number: 19-14846-C
Case Style: Leroy Banks v. Stephen Fields, et al
District Court Docket No: 5:18-cv-00435-MTT-CHW
This Court requires all counsel to file documents electronically using the Electronic Case
Files ("ECF") system, unless exempted for good cause. Non-incarcerated pro se parties
are permitted to use the ECF system by registering for an account at www.pacer.gov.
Information and training materials related to electronic filing, are available at
www.cal 1 .uscourts.gov.
The enclosed order has been ENTERED.
Pursuant to Eleventh Circuit Rule 42-1(b) you are hereby notified that upon expiration of
fourteen (14) days from this date, this appeal will be dismissed by the clerk without further
notice unless you pay to the DISTRICT COURT clerk the docketing and filing fees, with notice
to this office.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Walter Pollard, C/csg.
Phone #: (404) 335-6186
MOT-2 Notice of Court Action

frine-rS
.p ye.y\ J t y $ anj &
&

/A

1

t

4

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 1 of 28

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
LEROY BANKS, III,
Plaintiff,
v.
No. 5:18-cv-00435-MTT-CHW
DEPUTY ANTHONY TERRY,
et ah,
Defendants.

ORDER & RECOMMENDATION
Plaintiff Leroy Banks, III, filed a pro se civil rights complaint under 42 U.S.C.
§ 1983. Compl., ECF No. 1. He also moved for leave to proceed without prepayment of
the filing fee or security therefor pursuant to 28 U.S.C. § 1915(a). Mot. For Leave to
Proceed In Forma Pauperis, ECF No. 2. When he filed those documents, Plaintiff stated
that he was currently confined in the Riverbend Correctional Facility, see Compl. 1, ECF
No. 1, and listed that facility as his address on a certificate of interested persons, see Attach.
to Compl. 1, ECF No. 1-1, although he listed a private address on the signature page of his
complaint. See Compl. 6, ECF No. 1. Thereafter, mail sent to Plaintiff at the Riverbend
Correctional Facility was returned to this Court as undeliverable. Mail Returned, Dec. 10,
2018, ECF No. 5.
As a result of the returned mail, this Court entered an order directing Plaintiff to
show cause why this case should not be dismissed for failure to keep the Court apprised of
Plaintiffs current address. Order to Show Cause, ECF No. 6. That order was also sent

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 2 of 28

to Plaintiff at the Riverbend Correctional Facility and was returned to this Court as
undeliverable, with a notation that Plaintiff had been released. Mail Returned, Jan. 9,
2019, ECF No. 7. Thereafter, Plaintiff submitted a notice of change of address, stating
that, when he filed this case, he was no longer incarcerated at Riverbend or at any other
facility within the Georgia Department of Corrections. Notice of Change of Address, ECF
No. 8. Thus, he asked that all future mail be addressed to his private residence. Id.
Plaintiff also submitted a response to the show cause order, stating that he had filed
his complaint and motion to proceed in forma pauperis in person and had provided the
clerk with his home address, but that Riverbend had been mistakenly listed as his address
when the case was docketed. Response to Court Order, ECF No. 9. Plaintiff asked that
his notice of change of address be construed as a response to the show cause order and that
his case not be dismissed. Id. at 1 -2. As Plaintiff has provided this Court with his current
address and has demonstrated that he intends to proceed with the case, dismissal for want
of prosecution is not recommended at this time.
Having considered Plaintiffs filings, as discussed below, Plaintiffs motion for
leave to proceed in forma pauperis is GRANTED. Additionally, because Plaintiff is
proceeding pro se and because his claims arise under 42 U.S.C. § 1983 and relate to his
incarceration, the complaint is subject to a preliminary review under 28 U.S.C. § 1915(e).
Upon initial review, Plaintiffs false arrest and false imprisonment claims will be
allowed to proceed against Defendants Officer Anthony Terry and Officer Stephen Fields.
Additionally, Plaintiffs excessive force claim against Officer Terry will be allowed to
2

a

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 3 of 28

proceed with regard to whether Officer Terry used excessive force by placing and holding
Plaintiff in a hot, unventilated patrol car. It is RECOMMENDED that all of Plaintiff s
remaining claims against Officers Terry and Fields, as well has his claims against Sheriff
David Davis, Deputy T. Edwards, Lt. C. Penalton, District Attorney K. David Cooke, Jr.,
Assistant District Attorneys Thomas C. Williams and Benjamin Conkling, Investigator
Scott Chapman, the Bibb County Defendants, and the John Doe law enforcement officer
and assistant district attorney, be DISMISSED WITHOUT PREJUDICE.
I. Motion to Proceed In Forma Pauperis
Any court of the United States may authorize the commencement of a civil action,
without prepayment of the required filing fee (in forma pauperis), if the plaintiff shows
that he is indigent and financially unable to pay the court’s filing fee. See 28 U.S.C.
§ 1915(a). As permitted by this provision, Plaintiff has moved for leave to proceed in
forma pauperis in this case. Mot. for Leave to Proceed In Forma Pauperis, Aug. 10,2018,
ECF No. 2; Mot. for Leave to Proceed In Forma Pauperis, Oct. 29, 2018, ECF No. 7.
Upon review of his submissions, Plaintiffs motion is GRANTED.

Thus, Plaintiffs

complaint is ripe for preliminary screening.
II. Authority & Standard for Preliminary Screening
Because Plaintiff is a former prisoner “seeking redress from a governmental entity
or [an] officer or employee of a governmental entity,” the Court is required to conduct a
preliminary review of Plaintiff s complaint. See 28 U.S.C. § 1915(e) (regarding in forma
pauperis proceedings). When performing this review, the district court must accept all
3

''s

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 4 of 28

factual allegations in the complaint as true. Brown v. Johnson, 387 F.3d 1344, 1347 (11th
Cir. 2004). Pro se pleadings are also “held to a less stringent standard than pleadings
drafted by attorneys,” and thus, pro se claims are “liberally construed.” Tannenbaum v.
United States, 148 F.3d 1262, 1263 (11th Cir. 1998). Still, the Court must dismiss a
prisoner complaint if it “(i) is frivolous, malicious, or fails to state a claim upon which
relief may be granted; or (ii) seeks monetary relief from a defendant who is immune from
such relief.” 28 U.S.C. §1915(e)(2)(B).
A claim is frivolous if it “lacks an arguable basis either in law or in fact.” Miller
v. Donald, 541 F.3d 1091, 1100 (11th Cir. 2008) (internal quotation marks omitted). The
Court may dismiss claims that are based on “indisputably meritless legal” theories and
“claims whose factual contentions are clearly baseless.” Id. (internal quotation marks
omitted). A complaint fails to state a claim if it does not include “sufficient factual matter,
accepted as true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
The factual allegations in a complaint “must be enough to raise a right to relief above the
speculative level” and cannot “merely create[] a suspicion [of] a legally cognizable right
of action.” Twombly, 550 U.S. at 555 (first alteration in original). In other words, the
complaint must allege enough facts “to raise a reasonable expectation that discovery will
reveal evidence” supporting a claim. Id. at 556. “Threadbare recitals of the elements of
a cause of action, supported by mere conclusory statements, do not suffice.” Iqbal, 556
U.S. at 678.
4

J

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 5 of 28

To state a claim for relief under §1983, a plaintiff must allege that (1) an act or
omission deprived him of a right, privilege, or immunity secured by the Constitution or a
statute of the United States; and (2) the act or omission was committed by a person acting
I
under color of state law. Hale v. Tallapoosa Cty., 50 F.3d 1579, 1582 (11th Cir. 1995).
If a litigant cannot satisfy these requirements or fails to provide factual allegations in
support of his claim or claims, the complaint is subject to dismissal. See Chappell v. Rich,
340 F.3d 1279, 1282-84 (11th Cir. 2003).
A. Plaintiffs Complaint
In his complaint, Plaintiff asserts that, on October 18, 2016, he called 911 to have
his girlfriend, Laverne Johnson, and her son, Jarquize Johnson, removed from his home.1
Attach, to Compl. 3, ECF No. 1-1.

Defendants Officer Anthony Terry and Officer

Stephen Fields arrived at Plaintiffs home, and Plaintiff informed them that Laverne and
her son had kicked in the door to his house armed with a gun, demanded money and other
items, and struck Plaintiff in the head. Id. at 3-4. Plaintiff had then run out of the house

'Plaintiff identifies Laverne Johnson as a potential Plaintiff in this case. Attach, to Compl.
1, ECF No. 1-1. He also lists a person by the name of Tavaris Johnson. See id. No
allegations are made in the body of the complaint concerning anyone named Tavaris, and
it is not clear from the complaint whether Tavaris may be Laveme’s son, Jarquize, or if he
is a different individual. See id. at 1, 3. Regardless, Plaintiff is the only party who signed
the complaint or filed a motion to proceed in forma pauperis. Moreover, even if the other
named individuals had met these procedural requirements, Plaintiff, a non-lawyer, does not
have authority or standing to bring claims on behalf of other plaintiffs. See Granite State
Outdoor Adver., Inc. v. City of Clearwater, Fla., 351 F.3d 1112, 1116 (11th Cir. 2003)
(explaining that “a party generally may assert only his or her own rights and cannot raise
the claims of third parties not before the court”)- Thus, only Plaintiffs individual claims
are considered in this order.
5

I

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 6 of 28

to call 911. Mat 4.
Plaintiff alleges the officers conspired to falsify the police report to say that Plaintiff
and Laverne had been involved in a domestic dispute and that she was the one who had
called the police. Id. The officers charged both Plaintiff and Laverne with possession of
the gun, which Jarquize had thrown in Plaintiffs yard. Id. During the events, Plaintiff
told Officer Terry that Plaintiff had a disability relating to his “arm and head on the right
side,” but Officer Terry put Plaintiff in handcuffs that were unnecessarily tight, which hurt
Plaintiff. Id. at 10. Plaintiff alleges this was an excessive use of force.
Officer Terry then put Plaintiff in the patrol car head first, with further disregard for
Plaintiffs disability and his safety. Id. In the patrol car, Terry turned up the heat and
refused to crack the windows, hurting Plaintiff and putting him in danger.

Id.

In

particular, the heat in the car was so extreme that Plaintiff felt as though he could not
breathe. Id. The officers took Plaintiff to jail, where he was booked based on charges of
possession of a firearm by a convicted felon and a purported arrest warrant for Plaintiff,
which Plaintiff later learned was actually for a white male with a different social security
number from Plaintiff, although the warrant was made out in Plaintiff s name. Id. at 3-4.
The next day, defendant Officer T. Edwards called Newton County to confirm the
arrest warrant, demonstrating that Officer Terry had not confirmed the warrant before
arresting Plaintiff. Id. at 4-5. Plaintiff asserts that Officer Terry’s action in failing to
confirm the warrant and fabricating the possession of a firearm charge violated Plaintiff s
rights not to be arrested without probable cause; to be free from false arrest and
6

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 7 of 28

imprisonment; to be free from cruel and unusual punishment, specifically the infliction of
»

pain through excessive force; and to have due process and equal protection of the law. Id.
at 5-6.
Plaintiff was taken before the Bibb County Magistrate for a first appearance and
was given a bond amount that day. Id. at 6. Plaintiff asked for a commitment hearing,
which was first scheduled for November 2, 2016, and was then rescheduled for November
7, 2016. Id. At the commitment hearing, Officer Terry changed his statement to say that
Plaintiff was the only individual who had been charged. Id. Terry testified that when the
officers arrived at the scene, Laveme had stated that she and Plaintiff had been in an
argument and that Plaintiff had gotten a gun and started waiving it around.

Id.

Additionally, Terry stated that Plaintiff had a warrant in Newton County. Id. At the
conclusion of the commitment hearing, the magistrate judge raised Plaintiff s bond and
bound the case over to the Bibb County Superior Court. Id. at 6-7.
Plaintiff contends defendants Bibb County District Attorney K. David Cooke, Jr.
and Assistant District Attorneys Thomas C. Williams and Benjamin Conkling2 began
maliciously prosecuting Plaintiff on November 17, 2016, when they conspired with Terry,
Fields, and the Bibb County Sheriff to charge Plaintiff as the only defendant with
possession of a firearm by a convicted felon. Id. at 7,14. On December 2,2016, Plaintiff
asked to be taken to Newton County to handle a false probation warrant for him there, to

2Plaintiff also names an unidentified district attorney.
-'-'A

7

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 8 of 28

which Conkling objected. Id.
Plaintiff was initially taken to Newton County on December 2, 2016, but was then
brought back to Bibb County on December 12 or 13, 2016, at which point Plaintiff pleaded
not guilty to the possession of a firearm charge in Bibb County. Id. He was taken back
to Newton County on January 31,2017, when he learned that he had missed an arraignment
hearing while he was in custody in Bibb County. Id. at 7, 14-15. Plaintiff contends that
this scheduling issue was orchestrated to give Officer Terry time to appear and testify at
the Newton County hearing. Id. at 15.
Although Plaintiff maintains that the Newton County arrest.warrant was fabricated,
(

he was apparently charged with a probation violation for which there was a hearing. Id.
at 7, 15. Officer Terry testified at that hearing regarding the pending possession of a
firearm charge against Plaintiff in Bibb County.

Id.

Ultimately, Plaintiffs Newton

County probation was revoked and Plaintiff was sentenced to three years in Georgia State
Prison based on the false charges filed by Officer Terry in Bibb County. Id. Plaintiff
seems to admit to technical violations of his Newton County probation, but asserts that he
would only have been incarcerated for ninety days for those violations if not for the
firearms charge filed against him by Terry. Id.
In May or June 2017, Plaintiff was brought back to Bibb County from Georgia State
Prison for a trial and calendar call. Id. at 7-8. Plaintiff decided to proceed pro se in Bibb
County because he did not believe the public defender was providing him with effective
assistance of counsel. Id. at 8, 15. Plaintiffs motion to proceed pro se was granted, and
8

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 9 of 28

he was prepared to proceed at trial on June 19, 2017. Id. Trial began on June 20, 2017.
Id. at 15.
Before the trial started, Plaintiff asked the judge, in the presence of Williams,
whether Plaintiff had a codefendant, and the judge stated that he did not. Id. at 15-16.
Plaintiff alleges Terry again gave false testimony at the trial, consistent with his prior
statements that Plaintiff was the only person charged with possessi on of a firearm, although
/

he did admit that Plaintiff had reported a crime and that Terry had failed to help Plaintiff
with regard to that report. Id. at 8.
~ Laverne testified at the trial that she had been arrested for the same charge of
possession of a firearm on the night of the incident. Id. When Laverne did not say that
she had been released without being charged, as the prosecutors wanted her to, she was
excused from the witness stand and then was subsequently arrested and booked on the
possession of a firearm charge as soon as she left the courtroom. Id. at 16. Plaintiff
asserts that this arrest shows that he actually did have a codefendant and that both he and

l

Laverne were maliciously prosecuted based on racial profiling. Id. At the conclusion of
the trial, the jury found Plaintiff not guilty of the charge of possession of a firearm by a
convicted felon. Id. at 8, 17. Three days later, the charges against Laverne were also
dropped. Id. at 17.

y

w

Plaintiff asserts that, in addition to Officers Terry and Fields, he is suing their
supervisor Lieutenant Penalton and the Bibb County Sheriff David Davis for failing to
respond to Plaintiffs letters demanding that they investigate these matters and resolve his
9

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 10 of 28

claims.

Id. at 10-11.

Moreover, Plaintiff asserts that the Bibb County Board of

Commissioners is a defendant because the Commissioners are “insurers of Macon.”3 Id.
at 11.

Finally, Plaintiff asserts that District Attorney Investigator Scott Chapman

conspired with Conkling and Williams to violate Plaintiffs constitutional rights. Id. at
17.
1. Officer Anthony Terry
In the complaint, Plaintiff asserts that Defendant Officer Anthony Terry responded
to Plaintiffs 911 call, but then conspired with Defendant Officer Stephen Fields to falsely
charge Plaintiff with possession of a firearm by a convicted felon. Additionally, Plaintiff
claims Officer Terry brought Plaintiff in on an unverified warrant that bore Plaintiff s name
but different identifying details.

Officer Terry also testified against Plaintiff in his

commitment hearing, his Newton County probation violation hearing, and his possession
of a firearm trial.
Based on these allegations, Plaintiff asserts that Officer Terry falsely arrested
Plaintiff without probable cause, falsely imprisoned Plaintiff, and violated Plaintiff s rights
to due process and equal protection. Plaintiff also contends that Officer Terry violated the
Americans With Disabilities Act (the “ADA”) and Plaintiffs Eighth Amendment rights
when Officer Terry handcuffed Plaintiff too tightly despite Plaintiff s disability, forced
Plaintiff head first into the patrol car, and nearly suffocated Plaintiff in the patrol car by

3Plaintiff further asserts that these individuals and entities should be criminally prosecuted
based on the claims contained in this complaint. Id. at 11-13, 16.
10

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 11 of 28

running the heat and refusing to crack a window. These claims are addressed in turn
below.
a. False Arrest
i. Lack of Probable Cause for Handgun Charge
“An arrest without a warrant and lacking probable cause violates the Constitution
and can underpin a § 1983 claim, but the existence of probable cause at the time of arrest
is an absolute bar to a subsequent constitutional challenge to the arrest.” Brown v. City of
Huntsville, Ala., 608 F.3d 724, 734 (11th Cir. 2010). “Probable cause exists where the
facts within the collective knowledge of law enforcement officials, derived from
reasonably trustworthy information, are sufficient to cause a person of reasonable caution
to believe that a criminal offense has been or is being committed. Id.
When a plaintiff brings separate claims for false arrest and false imprisonment, the
claims are condensed into a single false arrest claim when the false imprisonment claim
arises from “a detention of the basis of [the] false arrest.” Hill v. Macon Police Dep’t, No.
5: lO-cv-472 (CAR), 2013 WL 594200, at *6 (M.D. Ga. Feb. 15,2013). Thus, to the extent
that Plaintiff alleges that false imprisonment as the result of the alleged false arrest, the
Court subsumes the false imprisonment claim into the false arrest claim. Id.
According to Plaintiffs allegations, Officer Terry responded to a 911 call made by
Plaintiff reporting that he had been assaulted by Laverne and her son. Sometime after
arriving at Plaintiffs home, the officers apparently found a gun in Plaintiff s yard. Then,
knowing that the gun had been put there by Laverne’s son, Officer Terry reported that
li

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 12 of 28

Plaintiff had been the one with the gun and charged him with possession of a firearm by a
convicted felon. These allegations, accepted as true and construed in Plaintiffs favor,
state that Officer Terry did not have probable cause to arrest Plaintiff on the possession of
a handgun charge.
ii. Mistaken Identity on the Warrant
According to the complaint, Officer Terry also detained Plaintiff on an alternative
basis, namely, the Newton County arrest warrant. The Eleventh Circuit has recognized a
separate false imprisonment claim based on an arrest founded on a mistake as to the
s arrestee’s identity. See id. (discussing Rodriguez v. Farrell, 200 F.3d 1341,1345-46 (11th
Cir. 2002)
In this regard, Plaintiff appears to acknowledge that the arrest warrant bore
Plaintiffs name, but asserts that it was not for Plaintiff, but for a white man whose social
security number was different from Plaintiffs. The question of “whether the mistaken
arrest of one person (for whom no probable cause to arrest existed) based upon the
misidentification of that person as a second person (for whom probable cause to arrest
existed) violated the Constitution,” turns on whether the police “reasonably mistake” the
second person for the first, Rodriguez, 200 F.3d at 1345-46 (quoting Hill v. California,
401 U.S. 797, 802 (1971)). The same standard applies when the police have a valid
warrant for arrest, but mistakenly arrest another person instead. Id. at 1346.
In determining the reasonableness of the mistake, the Court looks to the totality of
the circumstances. Id. at 1347. When holding that the totality of the circumstances must
12

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 13 of 28

be considered, the Eleventh Circuit declined to adopt a broad standard providing that a
police officer acts reasonably based solely on a determination that the name of the person
arrested matches the name on the outstanding arrest warrant. See id. at 1346-47.
Here, although Plaintiffs allegations are minimal, the Court must accept those
allegations as true and construe them in Plaintiffs favor. As Plaintiff has alleged that the
warrant was for an individual of a different race and with a different social security number,
he has set forth sufficient facts from which it could be concluded that Officer Terry’s
mistake in arresting Plaintiff was unreasonable. Because Plaintiff has alleged that Terry
lacked probable cause to arrest Plaintiff on the handgun charge and unreasonably mistook
Plaintiff for the subject of a warrant, Plaintiffs false arrest and false imprisonment claims
against Officer Terry will be allowed to proceed for further factual development.
b. Excessive Force
i. Handcuffing
The Fourth Amendment’s prohibition against unreasonable searches and seizures
encompasses the plain right to be free from the use of excessive force in the course of an
arrest. See Graham v. Connor, 490 U.S. 386, 394-95 (1989).

In order to determine

whether the amount of force used by a police officer was proper, a court must ask “whether
a reasonable officer would believe that this level of force is necessary in the situation at
hand.” McCullough v. Antolini, 559 F.3d 1201, 1206 (11th Cir. 2009) (quoting Lee v.
Ferraro, 284 F.3d 1188, 1197 (11th Cir. 2002)).
Plaintiff alleges that Officer Terry placed the handcuffs on Plaintiff too tightly,
13

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 14 of 28

knowing that Plaintiff had a disability in his arm; that Officer Terry forced him,
handcuffed, into the back seat of the patrol car headfirst; and that Officer Terry turned the
heat up in the patrol car and made Plaintiff stay in the car without cracking a window. The
Eleventh Circuit has concluded that “[pjainful handcuffing, without more, is not excessive
force in cases where the resulting injuries are minimal.” Rodriguez, 280 F.3d at 1352.
Conversely, handcuffing that “intentionally and gratuitously” causes “serious and
substantial injury” to a person of “ordinary vulnerability” may constitute excessive force.
See Sebastian v. Ortiz, 918 F.3d 1301, 1309 (11th Cir. 2019).
Although Plaintiff alleges that he had a disability, which meant that he was caused
additional pain during the handcuffing, Plaintiff does not allege that he suffered any lasting
injury beyond temporary pain while he was handcuffed, much less that he suffered an
injury that was serious and substantial. Thus, he has not stated an excessive force claim
with regard to the handcuffing.

See Rodriguez, 280 F.3d at 1352.

Thus, it is

RECOMMENDED that Plaintiffs excessive force claim against Officer Terry based on
handcuffing be DISMISSED WITHOUT PREJUDICE.
ii. Placement in Hot. Unventilated Car •
As to his being forced into the car head first, Plaintiffs allegations are minimal, but
it appears that his allegations could support the conclusion that Officer Terry used more
force than necessary to put Plaintiff into the patrol car. Moreover, as to his confinement
in the hot vehicle, courts have held that unnecessary detention in extreme temperatures
may violate the Fourth Amendment’s prohibition against unreasonable searches and
14

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 15 of 28

seizures. See Burchett v. Kiefer, 310 F.3d 937, 945 (6th Cir. 2002). In this regard, the
Supreme Court has held that, under certain circumstances, “unnecessary exposure to the
heat of the sun, to prolonged thirst and taunting, and to a deprivation of bathroom breaks”
may violate the Eighth Amendment’s prohibition on “unnecessary and wanton infliction
of pain.” Hope v. Pelzer, 536 U.S. 730, 738 (2002).

These actions therefore would

likewise violate the Fourth Amendment, which requires a showing only of objective
unreasonableness, rather than a particular subjective motivation. Burchett, 310 F.3d at
945.
Plaintiff does not state how long he was kept in the hot, unventilated patrol car, but
he does say that it came to a point where he could barely breathe. Accepting this allegation
as true and construing it in his favor, Plaintiff has sufficiently alleged a Fourth Amendment
violation with regard to his placement and confinement in the patrol car to allow this claim
to proceed against Officer Terry past the preliminary review stage.
c. Americans With Disabilities Act
To state a. claim under Title II of the ADA, a plaintiff must show “(1) that he is a
qualified individual with a disability; (2) that he was either excluded from participating in
or denied the benefits of a public entity’s services, programs, or activities, or was otherwise
discriminated against by the public entity; and (3) that the exclusion, denial of benefit, or
discrimination was by reason of the plaintiff s disability. Bircoll v. Miami-Dade Cty., 480
F.3d 1072, 1083 (11th Cir. 2007) (internal citation omitted). “Whether an individual has
a ‘disability’ within the ADA’s purview turns on a determination of whether the individual
15

/
/

/i

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 16 of 28

has: a physical or mental impairment that substantially limits one or more of the major life
activities of such individual; a record of such an impairment; or is regarded as having such
an impairment.” Stewartv. Happy Herman’s Cheshire Bridge, Inc., 117 F.3d 1278, 1285
(11th Cir. 1997) (internal citations omitted).
Plaintiff generally alleges that he had “disability physical conditions to [his] arm
and head on the right side” but does not provide any specific information about these
alleged disability conditions. In particular, Plaintiff does not include any allegations
describing the nature of these conditions or suggesting that Plaintiff s conditions limit one
or more of his major life activities. Plaintiffs general allegation that he has a disability,
without specific factual allegations in support of this claim, are insufficient to state a claim
in this regard. See Iqbal, 556 U.S. at 678 (“Threadbare recitals of the elements of a cause
of action, supported by mere conclusory statements, do not suffice.”). Accordingly, it is
RECOMMENDED that Plaintiffs ADA claim be DISMISSED WITHOUT
PREJUDICE for failure to state a claim.
d. Due Process
The Fourteenth Amendment’s Due Process Clause confers substantive and
procedural due process rights on individuals. Albright v. Oliver, 510 U.S. 266, 272
(1994). With regard to substantive due process, the Supreme Court has held that, if a
particular constitutional amendment “provides an explicit textual source of constitutional
protection” against a specific government behavior, “that Amendment, not the more
generalized notion of ‘substantive due process,’ must be the guide for analyzing these
16

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 17 of 28

claims.” Graham v. Connor, 490 U.S. 386, 395 (1989). Because Plaintiffs false arrest
claim is governed by the Fourth Amendment’s prohibition against unreasonable search and
\
\

seizure, he cannot state a substantive due process claim on the same grounds. See id.
As to procedural due process, to prevail on a procedural due process claim, a
plaintiff must establish: “(1) a constitutionally protected interest in life, liberty or property;
(2) governmental deprivation of that interest; and (3) the constitutional-inadequacy of
procedures accompanying the deprivation.” Bank of Jackson Cty. v. Cherry, 980 F.2d
1362, 4 366 (11th Cir. 1993). The protections of procedural due process do not attach,
however, until an arrest is completed, the plaintiff has been released from the arresting
officer’s custody, and pretrial detainment begins. See Garrett v. Athens-Clarke Cty., 378
F.3d 1274, 1279 n.ll (11th Cir. 2004) (citing Gutierrez v. Cty. of San Antonio, 139 F.3d
441, 452 (5th Cir. 1998)). To the extent Plaintiff seeks to raise a procedural due process
claim against Officer Terry relating to the arrest itself, this claim necessarily fails. It is
therefore RECOMMENDED that Plaintiffs due process claim against Officer Terry be
DISMISSED WITHOUT PREJUDICE for failure to state a claim.
e. Equal Protection

A

The Fourteenth Amendment’s Equal Protection Clause provides that no state shall
deny to any person within its jurisdiction the equal protection of the laws.” U.S. Const,
amend. XIV, § 1. A plaintiff bringing an equal protection claim must prove either that he
“has been intentionally treated differently from others similarly situated and that there is
no rational basis for the difference in treatment,” Village ofWillowbrook v. Olech, 528 U.S.
17

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 18 of 28

562, 564 (2000), or that he “was treated differently than similarly situated persons [and]
the defendant unequally applied [a] facially neutral statute for the purpose of discriminating
against the plaintiff.” Strickland v. Alderman, 74 F.3d 260, 264 (11th Cir. 1996).
Plaintiff has not alleged any specific, plausible facts to indicate that Officer Terry
treated Plaintiff differently from any similarly situated individuals. Thus, he has not stated
an equal protection claim. See Griffin Indus., Inc. v. Irvin, 496 F.3d 1189, 1207 (11th Cir.
2007) (recognizing that, whether a claim asserts a.traditional equal protection claim or a
“class of one” claim, an equal protection claim will fail in the absence of an allegation that
the plaintiff was treated dissimilarly to other similarly situated individuals). Accordingly,
it is RECOMMENDED that this claim be DISMISSED WITHOUT PREJUDICE for
failure to state a claim.
f. Testimony
It also appears that Plaintiff may be attempting to state a claim against Officer Terry
based on Terry’s testimony in Plaintiffs criminal proceedings. The Supreme Court has
held, however, that police officers who testify as witnesses in criminal proceedings are,
like all witnesses, absolutely immune from damages liability for claims based on such
testimony. See Briscoe v. LaHue, 103 S. Ct. 1108, 1113-21 (1983). Thus, Plaintiff
cannot state a claim against Officer Terry based on his testimony in Plaintiffs criminal
proceedings, and it is therefore RECOMMENDED that any such claim be DISMISSED
WITHOUT PREJUDICE.

18

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 19 of 28

2. Officer Stephen Fields
Plaintiff alleges that Defendant Officer Stephen Fields falsely arrested Plaintiff for
possession of a firearm by a convicted felon. Construed in Plaintiff s favor, the Complaint
alleges that Officer Fields arrested Plaintiff knowing that Plaintiff had not possessed the
gun and without verifying the purported warrant out of Newton County. For the same
reasons that the false arrest and false imprisonment claim will be allowed to proceed
against Officer Terry, this claim will also be permitted to proceed as to Officer Fields. To
the extent that Plaintiff intended to state a due process or equal protection claim against
Officer Fields, it is RECOMMENDED that those claims be DISMISSED WITHOUT
PREJUDICE for the reasons discussed with regard to Officer Terry above.
$

3. Sheriff David Davis and Lieutenant C. Penalton
The only allegations that Plaintiff brings against Defendants Sheriff David Davis
and Lieutenant C. Penalton are that these defendants were Officers Terry and Fields’
supervisors and that they failed to respond to letters Plaintiff sent them demanding that his
complaints be addressed.
A prisoner cannot state a § 1983 claim based on a theory of respondeat superior or
vicarious liability. Miller v. King, 384 F.3d 1248, 1261 (11th Cir. 2004). Instead, to state
a claim against a supervisory official, a prisoner must allege facts showing either that the
supervisor personally participated in the alleged constitutional violation or that there is a
causal connection between the actions of the supervising official and the alleged
constitutional deprivation. H.C. by Hewett v. Jarrard, 786 F.2d 1080, 1086-87 (11th Cir.
19

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 20 of 28

1986). This may be done by alleging that the official either “(1) instituted a custom or
policy which resulted in a violation of the plaintiffs constitutional rights; (2) directed his
subordinates to act unlawfully; or (3) failed to stop his subordinates from acting unlawfully
when he knew they would.” Gross v. White, 340 F. App’x 527, 531 (11th Cir. 2009) (per
curiam) (citing Goebert v. Lee County, 510 F.3d 1312, 1331 (11th Cir. 2007)).
Plaintiff does not allege that Sheriff Davis or Lt. Penalton was personally involved
in the alleged constitutional violation, nor does he allege any facts showing that the false
arrest was a result of a custom or policy initiated by either of these defendants, that either
of these defendants directed Officers Terry and Fields to violate Plaintiffs rights, or that
either of these defendants knowingly failed to stop Officer Terry or Officer Fields from
violating Plaintiffs rights. Accordingly, Plaintiff has not stated a claim against either of
these defendants, and it is RECOMMENDED that the claims against them be
DISMISSED WITHOUT PREJUDICE.
4. Deputy T. Edwards
Plaintiffs only allegation as to Deputy T. Edwards is that this defendant called
Newton County the day after Plaintiffs arrest to confirm the warrant against him there.
Plaintiff does not allege that Deputy Edwards was involved in the initial arrest or that he
otherwise violated Plaintiffs constitutional or other federal rights. As such, Plaintiff has
not stated a claim against Deputy Edwards, and it is RECOMMENDED that the complaint
be DISMISSED WITHOUT PREJUDICE as to this defendant. See LaMarca v. Turner,
995 F.2d 1526, 1538 (11th Cir. 1993) (“[Sjection 1983 requires proof of an affirmative
20

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 21 of 28

causal connection between the actions taken by a particular person under color of state law
and the constitutional deprivation.” (internal quotation marks and citations omitted)).
5. K. David Cooke. Jr.. Thomas C. Williams, and Beniamin Conkling
Plaintiff asserts that Defendants District Attorney K. David Cooke, Jr., and Assistant
District Attorneys Thomas C. Williams and Benjamin Conkling maliciously prosecuted
him for possession of a firearm by a convicted felon based on his race. Prosecutors are
absolutely immune from liability under 42 U.S.C. § 1983 when they are engaged in
prosecutorial functions - i.e., those actions that are “intimately associated with the judicial
phase of the criminal process.” Imbler v. Pachtman, 424 U.S. 409, 428 (1976). The
decision to bring or drop charges against an arrestee is a prosecutorial function. See
Anderson v. Simon, 217 F.3d 472, 475-76 (7th Cir. 2000). Thus, these defendants cannot
be sued for damages under § 1983 for their decision to prosecute Plaintiff.
Prosecutors are not, however, immune from claims for declaratory and injunctive
relief. See Bolin v. Story, 225 F.3d 1234, 1242 (11th Cir. 2000). To state a claim for
declaratory or injunctive relief, a plaintiff must allege (1) the violation of a right, (2) that
there is a serious risk of continuing irreparable injury if relief is not granted, and (3) that
no adequate remedy at law exists. See id. Flere, the criminal case against Plaintiff has
concluded, and Plaintiff has not alleged any facts that suggest that there is a potential for
ongoing injury based on any actions of these defendants. Declaratory or injunctive relief
is therefore unwarranted. Accordingly, it is RECOMMENDED that all of Plaintiff s
claims against Cooke, Williams, and Conkling be DISMISSED WITHOUT
21

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 22 of 28

PREJUDICE.
6. Investigator Scott Chapman
Plaintiff alleges that Defendant Investigator Scott Chapman conspired with the
prosecutors to violate Plaintiff s rights. Other than this general and conclusory allegation,
however, Plaintiff does not allege any specific facts against Chapman, much less any facts
demonstrating that Chapman was actually involved in any violation of Plaintiffs rights.
Because Plaintiff has not stated a claim against Chapman, it is RECOMMENDED that
Plaintiffs claims be DISMISSED WITHOUT PREJUDICE as to this defendant. See
Iqbal, 556 U.S. at 678; LaMarca, 995 F.2d at 1538.
7. Bibb County Defendants
Plaintiff includes the Bibb County Board of Commissioners, the Risk Management
Department, and other officers and employees of Bibb County as defendants to this action .
In so doing, Plaintiff states that he names these defendants as the “insurers” of Bibb
County. To state a claim against a municipality, a plaintiff must assert facts showing that
the municipality had a “policy or custom” of deliberate indifference that led to the
constitutional violations. See Monell v. Dep’t ofSoc. Servs., 436 U.S. 658, 691 (1978).
“Because municipalities rarely have an official policy that endorses a constitutional
violation,” a plaintiff generally must show that the municipality had “a custom or practice”
of allowing the violation, and that the custom or practice caused the violation. Craig v.
Floyd Cty., Ga., 643 F.3d 1306, 1310 (11th Cir. 2011). Because Plaintiff has not alleged
any facts suggesting that a policy or custom instituted or held by Bibb County led to the
22

r

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 23 of 28

alleged constitutional violations, it is RECOMMENDED that Plaintiffs claims against
the Bibb County Defendants be DISMISSED WITHOUT PREJUDICE.
8. John Doe Bibb County Officer and Assistant District Attorney
Plaintiff also names two John Doe defendants, a Bibb County law enforcement
officer and an Assistant District Attorney.

Generally, fictitious party pleading, i.e.,

bringing claims against John Doe defendants, is only permitted in federal court when the
plaintiffs description of the defendant is so specific that the party may be identified for
service even though his or her actual name is unknown. See Richardson v. Johnson, 598
F.3d 734, 738 (11th Cir. 2010). Plaintiff has not included any identifying information to
\

allow the Court to identify these defendants.

Even if he had included any such

information, Plaintiff has not made any specific factual allegations with regard to these
defendants. As Plaintiff has not stated a claim against the unidentified law enforcement
officer or the unidentified assistant district attorney, it is RECOMMENDED that any
claims against these John Doe defendants be DISMISSED WITHOUT PREJUDICE.
B. Conclusion
For the reasons discussed above, Plaintiffs false arrest and false imprisonment
claims will be allowed to proceed against Defendants Officer Anthony Terry and Officer
Stephen Fields.

Plaintiffs excessive force claim against Officer Terry will also be

allowed to proceed with regard to whether Officer Terry used excessive force by placing
and holding Plaintiff in a hot, unventilated patrol car. It is RECOMMENDED that all of
Plaintiffs remaining claims against Officers Terry and Fields, as well has his claims
23

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 24 of 28

against Sheriff David Davis; Deputy T. Edwards; Lt. C. Penalton; Assistant District
Attorneys K. David Cooke, Jr., Thomas C. Williams, and Benjamin Conkling; Investigator
Scott Chapman; the Bibb County Defendants; and the John Doe law enforcement officer
and assistant district attorney, be DISMISSED WITHOUT PREJUDICE.
III. Right to File Objections
Pursuant to 28 U.S.C. § 636(b)(1), the parties may serve and file written objections
to any recommendation with the United States District Judge to whom this case is assigned
WITHIN FOURTEEN (14) DAYS after being served with a copy of this Order and
i

Recommendation. The parties may seek an extension of time in which to file written
objections, provided a request for an extension is filed prior to the deadline Ibr filing written
objections. Failure to object in accordance with the provisions of § 636(b)(1) waives the
right to challenge on appeal the district judge’s order based on factual and legal conclusions
to which no objection was timely made. See 11th Cir. R. 3-1.
IV. Order for Service
For those reasons discussed above, it is hereby ORDERED that service be made on
DEFENDANTS OFFICER ANTHONY TERRY and OFFICER STEPHEN FIELDS,
and that they file an Answer, or other response as appropriate under the Federal Rules, 28
U.S.C. § 1915, and the Prison Litigation Reform Act. Defendants are also reminded of
the duty to avoid unnecessary service expenses, and the possible imposition of expenses
for failure to waive service.
24

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 25 of 28

DUTY TO ADVISE OF ADDRESS CHANGE
During this action, all parties shall at all times keep the Clerk of this Court and all
opposing attorneys and/or parties advised of their current address. Failure to promptly
advise the Clerk of any change of address may result in the dismissal of a party’s pleadings.
DUTY TO PROSECUTE ACTION
Plaintiff must diligently prosecute his Complaint or face the possibility that it will
be dismissed under Rule 41(b) for failure to prosecute. Defendants are advised that they
are expected to diligently defend all allegations made against them and to file timely
dispositive motions as hereinafter directed. This matter will be set down for trial when
the Court determines that discovery has been completed and that all motions have been
disposed of or the time for filing dispositive motions has passed.
FILING AND SERVICE OF MOTIONS,
PLEADINGS, AND CORRESPONDENCE
It is the responsibility of each party to file original motions, pleadings, and
correspondence with the Clerk of Court. A party need not serve the opposing party by
mail if the opposing party is represented by counsel.

In such cases, any motions,

pleadings, or correspondence shall be served electronically at the time of filing with the
Court. If any party is not represented by counsel, however, it is the responsibility of each
opposing party to serve copies of all motions, pleadings, and correspondence upon the
unrepresented party and to attach to said original motions, pleadings, and correspondence
filed with the Clerk of Court a certificate of service indicating who has been served and
25

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 26 of 28

where (i.e., at what address), when service was made, and how service was accomplished
(i.e., by U.S. Mail, by personal service, etc.).
DISCOVERY
Plaintiff shall not commence discovery until an answer or dispositive motion has
been filed on behalf of Defendant from whom discovery is sought by Plaintiff.
Defendants shall not commence discovery until such time as an answer or dispositive
motion has been filed. Once an answer or dispositive motion has been filed, the parties
are authorized to seek discovery from one another as provided in the Federal Rules of Civil
Procedure.

Plaintiffs deposition may be taken at any time during the time period

hereinafter set out, provided that prior arrangements arc,made with his custodian. Plaintiff
is hereby advised that failure to submit to a deposition may result in the dismissal of his
lawsuit under Fed. R. Civ. P. 37 of the Federal Rules of Civil Procedure.
IT IS HEREBY ORDERED that discovery (including depositions and the service
of written discovery requests) shall be completed within 90 days of the date of filing of an
answer or dispositive motion by Defendants (whichever comes first) unless an extension
is otherwise granted by the Court upon a showing of good cause therefor or a protective
order is sought by Defendants and granted by the Court. This 90-day period shall run
separately as to each Defendant beginning on the date of filing of each Defendant’s answer
or dispositi ve motion (whichever comes first). The scheduling of a trial may be advanced
upon notification from the parties that no further discovery is contemplated or that
discovery has been completed prior to the deadline.
26

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 27 of 28

Discovery materials shall not be filed with the Clerk of Court. No party shall be
required to respond to any discovery not directed to him or served upon him by the
opposing counsel/party. The undersigned incorporates herein those parts of the Local
Rules imposing the following limitations on discovery: except with written permission of
the Court first obtained, INTERROGATORIES may not exceed TWENTY-FIVE (25) to
each party, REQUESTS FOR PRODUCTION OF DOCUMENTS AND THINGS under
Rule 34 of the Federal Rules of Civil Procedure may not exceed TEN (10) requests to each
party, and REQUESTS FOR ADMISSIONS under Rule 36 of the Federal Rules of Civil
Procedure may not exceed FIFTEEN (15) requests to each party. No party is required to
respond to any request which exceed these limitations.
REQUESTS FOR DISMISSAL AND/OR JUDGMENT
Dismissal of this action or requests for judgment will not be considered by the Court
in the absence of a separate motion accompanied by a brief/memorandum of law citing
supporting authorities. Dispositive motions should be filed at the earliest time possible,
but no later than one hundred-twenty (120) days from when the discovery period begins.
CONCLUSION
Thus, for the reasons discussed above, Plaintiffs false arrest and false imprisonment
claims will be allowed to proceed against Defendants Officer Anthony Terry and Officer
Stephen Fields. Additionally, Plaintiffs excessive force claim against Officer Terry will
be allowed to proceed with regard to whether Officer Terry used excessive force by placing
and holding Plaintiff in a hot, unventilated patrol car.
27

On the other hand, it is

r

Case 5:18-cv-00435-MTT-CHW Document 10 Filed 05/15/19 Page 28 of 28

RECOMMENDED that all of Plaintiffs remaining claims against Officers Terry and
Fields, as well has his claims against Sheriff David Davis; Deputy T. Edwards; Lt. C.
Penalton; Assistant District Attorneys K. David Cooke, Jr., Thomas C. Williams, and
Benjamin Conkling; Investigator Scott Chapman; the Bibb County Defendants; and the
John Doe law enforcement officer and assistant district attorney, be DISMISSED
WITHOUT PREJUDICE.
SO ORDERED and RECOMMENDED, this 15th day of May, 2019.
s/ Charles H. Weigle________
Charles H. Weigle
United States Magistrate Judge

28

r

Page 1 of2

CM/ECF LIVE- GAMD
*•

Other Orders
5:18-CV-00435-MTT-CHW
BANKS v. TERRY, et al
HDS,PRO SE
U.S. District Court [LIVE AREA]
Middle District of Georgia
Notice of Electronic Filing
The following transaction was entered on 5/15/2019 at 11:27 AM EDT and filed on 5/15/2019
BANKS v. TERRY, et al
Case Name:
Case Number:
5:18-CV-00435-MTT-CHW
Filer:
Document Number: 10
Docket Text:
ORDER granting [2] Motion for Leave to Proceed in forma pauperis; ORDER
Directing Service on Officer Anthony Terry and Officer Stephen Fields; REPORT
AND RECOMMENDATION that Plaintiffs claims against Sheriff David Davis; Deputy
T. Edwards; Lt. C. Penalton; Assistant District Attorneys K. David Cooke, Jr., Thomas C.
Williams, and Benjamin Conkling; Investigator Scott Chapman; the Bibb County
Defendants; and the John Doe law enforcement officer and assistant district attorney,
be DISMISSED WITHOUT PREJUDICE re [1] Complaint filed by LEROY BANKS, III. Only
Plainiffs false arrest and false imprisonment claims will be allowed to proceed against
Defendants Officer Anthony Terry and Officer Stephen Fields, It is Recommended that
all remaining claims against officers Terry and Fields be Dismissed without Prejudice.
Ordered by US MAGISTRATE JUDGE CHARLES H WEIGLE on 05/15/2019. (cma)
5:18-cv-00435-MTT-CHW Notice has been electronically mailed to:
5:18-cv-00435-MTT-CHW On this date, a copy of this document, including any attachments, has
been mailed by United States Postal Service to any non CM/ECF participants as indicated below::
LAVERNE JOHNSON
Address Unknown
LEROY BANKS, III
2029 LOWE STREET
MACON, GA 31204
TAVARIS JOHNSON
Address Unknown

https://gamd-ecf.sso.dcn/cgi-bin/Dispatch.pl7870657382462955

5/15/2019

r

CM/ECF LIVE- GAMD

Page 2 of 2

«T

The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1071512857 [Date=5/15/2019] [FileNumber=3184679-0
] [2876b4307363e55cdb2ca95d2727ef723e051e5b9afe3ce9b065877c7clfdl28681
1323cf9e5586e509e318b89c066a0d3a6af276d334b9269877913821b9777]]

https://gamd-ecf.sso.dcn/cgi-bin/Dispatch.pl7870657382462955

5/15/2019

Case 5:18-cv-00435-MTT-CHW Document 25 Filed 06/18/19 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
LEROY BANKS, III, etal.,
Plaintiffs,
v.

)
)
)
)

)

Deputy ANTHONY TERRY, et al.,

Defendants.

CIVIL ACTION NO. 5:18-CV-435 (MTT)

)
)
)
)
)
)

ORDER
After reviewing Plaintiff Leroy Banks’ complaint pursuant to 28 U.S.C. § 1915A,
United States Magistrate Judge Charles H. Weigle recommends allowing the Plaintiff’s
false arrest claims against Defendants Deputy Anthony Terry and Officer Stephen
Fields and his excessive force claim pertaining to placing and holding the Plaintiff in a
hot, unventilated patrol car against Defendant Terry to go forward. Doc. 10. The
Magistrate Judge further recommends dismissing without prejudice the Plaintiff’s
remaining claims and dismissing Plaintiffs Laverne Johnson and Tavaris Johnson. Id.
The Plaintiff has objected to the Recommendation. Doc. 19. Pursuant to 28 U.S.C. §
636(b)(1), the Court has reviewed the Plaintiff’s objection and has made a de novo
determination of the portions of the Recommendation to which the Plaintiff objects.
In his objection, the Plaintiff has asserted additional facts to his excessive force
claim pertaining to Defendant Terry placing handcuffs on the Plaintiff too tightly. Doc.
19 at 11. Therefore, the Court will construe these parts of the objection as a motion to

a.

Case 5:18-cv-00435-MTT-CHW Document 25 Filed 06/18/19 Page 2 of 3

amend the complaint. See Newsome v. Chatham Cty. Det. Ctr., 256 F. App’x 342, 344
(11th Cir. 2007) (“Although the form of those additional allegations were objections to
the recommendation of dismissal, the collective substance of them was an attempt to
amend the complaint. Because courts must construe pro se pleadings liberally, the
district court should . . . consider [the plaintiff’s] additional allegations in the objection as
a motion to amend his complaint and grant[] it.”). Accordingly, that motion (Doc. 19 at
11) is GRANTED.
The Magistrate Judge recommended dismissing the Plaintiff’s excessive force
claim against Defendant Terry for handcuffing the Plaintiff too tightly because the
Plaintiff did not allege “that he suffered an injury that was serious and substantial.” Doc.
10 at 14. In his objection, the Plaintiff alleged an additional fact that he must undergo
surgery as a result of the handcuffs being placed on him too tightly. Doc. 19 at 11. The
Plaintiff has thus alleged a substantial injury, and his excessive force claim against
Defendant Terry may proceed. See Sebastian v. Ortiz, 918 F.3d 1301, 1309 (11th Cir.

2019).
The Plaintiff’s objection to the dismissal of remaining claims appear to restate
prior allegations. Compare Doc. 1, with Doc. 19. “A general objection, or one that
merely restates the arguments previously presented!,] is not sufficient to alert the court
to alleged errors on the part of the magistrate judge. An ‘objection’ that does nothing
more than state a disagreement with a magistrate’s suggested resolution, or simply
summarizes what has been presented before, is not an ‘objection’ as that term is used
in this context.” Carolina Cas. Ins. Co. v. Ark. Transit Homes, Inc., 2012 WL 1340107
at *5 (N.D. Ala. 2012) (alterations in original) (internal quotation marks and citation

-2-

i

.

.

Case 5:18-cv-00435-MTT-CHW Document 25 Filed 06/18/19 Page 3 of 3

omitted). Accordingly, the remaining claims are DISMISSED without prejudice for the
reasons stated in the Recommendation.
The Court has reviewed the Recommendation and accepts the findings
conclusions, and recommendations of the Magistrate Judge. The Recommendation is
ADOPTED and made the order of this Court. Accordingly, the Plaintiff’s false arrest
claims against Defendants Terry and Fields and both of his excessive force claims
against Defendant Terry may go forward. The Plaintiff’s remaining claims are
DISMISSED without prejudice, and the Clerk is DIRECTED to remove Laverne
Johnson and Tavaris Johnson as Plaintiffs in this case.
SO ORDERED, this 18th day of June, 2019.
SI Marc T. Treadwell
MARC T. TREADWELL, JUDGE
UNITED STATES DISTRICT COURT

-3-

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
LEROY BANKS, III,
Plaintiff,
v.
No. 5:18-cv-00435-MTT-CHW
DEPUTY TERRY ANTHONY, et al.,
Defendants.
ORDER
Plaintiff Leroy Banks, III, filed a pro se 42 U.S.C. § 1983 civil rights complaint,
Compl., ECF No. 1, and a motion for leave to proceed in forma pauperis. Mot. for Leave
to Proceed In Forma Pauperis, ECF No. 2. On preliminary review, Plaintiff Banks was
allowed to proceed on false arrest and false imprisonment claims against Defendants
Officer Terry Anthony and Officer Stephen Fields, as well as an excessive force claim
against Officer Anthony. Order, May 15, 2019, ECF No. 10; Order Adopting R. & R.,
June 18, 2019, ECF No. 25. The preliminary screening Order noted that Plaintiff Banks
had identified additional potential plaintiffs to this case but that those potential plaintiffs
had not appeared on their own behalf and could not be represented by Plaintiff Banks.
Order 5 n.l, ECF No. 10. Thus, they were dismissed as plaintiffs in this action. Order
Adopting R. & R., ECF No. 25.
Laverne Johnson, one of the potential plaintiffs identified by Plaintiff Banks, has
now filed a motion to be joined in this action on behalf of herself and her minor child,
Tavoris Johnson. Mot., June 18, 2019, ECF No. 27. Ms. Johnson has also moved to
proceed in this action in forma pauperis. Mot. & Aff. for Leave to Proceed In Forma

Pauperis, ECF No. 26. Because Ms. Johnson’s documentation demonstrates that she is
unable to pay the Court’s filing fee, her motion to proceed in forma pauperis is now
GRANTED.
With regard to Ms. Johnson’s request to be joined as a party plaintiff, two or more
people may be joined as plaintiffs in the same action under Federal Rule of Civil Procedure
Rule 20(a)(1), if “(A) they assert any right to relief jointly, severally, or in the alternative
with respect to or arising out of the same transaction, occurrence, or series of transactions
or occurrences; and (B) any question of law or fact common to all plaintiffs will arise in
the action.” Based on her filings, it appears that Ms. Johnson intends to assert a right to
relief “arising out of the same transaction, occurrence, or series of transactions or
occurrences” as the claims submitted by Plaintiff Banks. Further, it appears likely that
Ms. Johnson’s claims will raise a question of law or fact in common with Plaintiff Banks’s
claims.
Ms. Johnson has not, however, identified in her motion the specific claims that she
wishes to raise on her own behalf.

Instead, Ms. Johnson requested leave to file a

supplement to the complaint in order to set forth the facts supporting her claims. Mot.,
June 18, 2019, ECF No. 27. Under the circumstances, Ms. Johnson’s motion to be added
as a plaintiff and her request to file a supplement (ECF No. 27) are GRANTED. To that

'As noted above, Ms. Johnson asserted an intent to bring claims on behalf of her minor
child. “[Pjarents who are not attorneys may not bring a pro se action on their child’s
behalf.” Devine v. Indian River Cty. Sch. Bd., 121 F.3d 576, 581 (11th Cir. 1997),
overruled in part on other grounds by Winkelman ex rel. Winkelman v. Parma City Sch.
Dist., 550 U.S. 516, 535 (2007). Thus, Ms. Johnson may only raise claims on her own
behalf in this action.
2

end, Ms. Johnson is now ORDERED to file a complaint on her own behalf setting forth
her claims in this action. Ms. Johnson shall have TWENTY-ONE (21) DAYS from the
date of this order to submit a new complaint setting forth her claims to the Clerk of Court.
Her failure to comply with this order may result in her dismissal from this action.
The Clerk of Court is DIRECTED to forward a non-prisoner 42 U.S.C. § 1983
complaint form together with a copy of this Order (both showing the civil action number)
to Ms. Johnson. There shall be no service with regard to Ms. Johnson’s claims pending
further order of the Court.
SO ORDERED and DIRECTED, this 17th day of July, 2019.
s/ Charles H. Weigle________
Charles H. Weigle
United States Magistrate Judge

3

Page 1 of 1

CM/ECF LIVE- GAMD

Other Orders
5:18-CV-00435-MTT-CHW
BANKS v. TERRY, et al
HDS,PROSE
U.S. District Court [LIVE AREA]
Middle District of Georgia
Notice of Electronic Filing
The following transaction was entered on 7/17/2019 at 1:30 PM EDT and filed on 7/17/2019
BANKS v. TERRY, et al
Case Name:
5:18-CV-00435-MTT-CHW
Case Number:
Filer:
Document Number: 28
Docket Text:
ORDER to Recast Complaint; granting [26] Motion for Leave to Proceed in forma pauperis;
granting [27] Motion for Leave to File. Ms. Johnson shall have TWENTY-ONE (21) DAYS from
the date of this order to submit a new complaint setting forth her claims to the Clerk of Court.
The Clerk of Court is DIRECTED to forward a non-prisoner 42 U.S.C.§1983 complaint form
together with a copy of this Order (both showing the civil action number) to Ms. Johnson,
Ordered by US MAGISTRATE JUDGE CHARLES H WEIGLE on 07/17/2019. (cma)

5:18-cv-00435-MTT-CHW Notice has been electronically mailed to:
5:18-cv-00435-MTT-CHW On this date, a copy of this document, including any attachments, has been
mailed by United States Postal Service to any non CM/ECF participants as indicated below::
LAVERNE JOHNSON
2029 LOWE ST
MACON, GA 31204
LEROY BANKS, III
2029 LOWE STREET
MACON, GA 31204
TAVARIS JOHNSON(Terminated)
Address Unknown
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID= 1071512857 [Date=7/17/2019] [FileNumber=3229283-0
] [81bf405752c50aaalae44d0902926948a51ff3be463584b7a3ad6043260c047a968
24b050fd9b5a21789e29fcbdbee793a3e7f2528ed49b75clb8c9d0e6f32d0]]

https://gamd-ecf.sso.dcn/cgi-bin/Dispatch.pl7823196058757262

7/17/2019

Case 5:18-cv-00435-MTT-CHW Document 43 Filed 10/10/19 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
LEROY BANKS, III, et al.,
Plaintiffs,
Case No. 5:18-cv-00435-MTT-CHW

v.

DEPUTY ANTHONY TERRY, et al,

Proceedings Under 42 U.S.C. § 1983
Before the U.S. Magistrate Judge

Defendants.

ORDER AND RECOMMENDATION
Before the Court are two motions to dismiss filed by Defendants Terry Anthony and
Stephen Fields, both deputies of the Bibb County Sheriffs Department, on the ground that Plaintiff
Leroy Banks’s complaint is barred by Georgia’s two-year statute of limitations. (Docs. 31, 33).
Because Plaintiffs complaint is untimely, it is RECOMMENDED that the motions be
GRANTED and the complaint be DISMISSED with prejudice. It is also ORDERED that
Plaintiffs motion to subpoena duces tecum (Doc. 37) be DENIED as moot.
I.

BACKGROUND

Plaintiff Leroy Banks, III, proceeding pro se, filed a complaint pursuant to 42 U.S.C. §
1983, alleging, among other things, that he was falsely arrested and falsely imprisoned by
Defendants Terry and Fields and that Defendant Terry used excessive force in arresting him. (Doc.
1-1).
The events on which Plaintiffs claims are based occurred on October 18, 2016, following
Plaintiffs call for police assistance to have his girlfriend, Laveme Johnson, and her 23-year-old
son, Jarquize Johnson, removed from his home. (Id., p. 3). Jarquize Johnson had allegedly kicked
in the door to Plaintiffs house while armed with a gun, demanded money and other items, and

1

Case 5:18-cv-00435-MTT-CHW Document 43 Filed 10/10/19 Page 2 of 6

struck Plaintiff in the head. {Id., pp. 3-4). Once Deputies Terry and Fields arrived on the scene,
both Plaintiff and Laverne Johnson were charged with possession of the gun, which Plaintiff claims
Jarquize had thrown in the grass in Plaintiffs yard while fleeing the scene. {Id.).
Plaintiff alleges that he suffers from a disability relating to his “arm and head on the right
side” and that he had informed Deputy Terry about the issue during his arrest. {Id., p. 10).
Nevertheless, Deputy Terry proceeded to place Plaintiff in handcuffs that were unnecessarily tight,
which, Plaintiff claims, caused “unbearable pain to [Plaintiffs] disability” and required surgery
to his right wrist and arm. {Id.; Doc. 9, p. 11). Plaintiff was then placed in an excessively hot and
unventilated patrol car by Deputy Terry. (Doc. 1-1, p. 10). Plaintiff claims that Deputy Terry s
actions in handcuffing him too tightly and placing him in a hot patrol car were excessive and
violated the Fourth Amendment.
Plaintiff also claims that Deputies Terry and Fields falsely arrested him for possession of
a firearm by a convicted felon and then falsely imprisoned him based on an arrest warrant that was
in fact issued for a different individual. {Id., pp. 4-5, 7). He also claims that they conspired to
fabricate the police report to make it appear as if Plaintiff and his girlfriend had had a domestic
dispute. {Id., p. 4). Although Plaintiff was acquitted in a jury trial, at which he represented himself,
of the offense of possession of a firearm by a convicted felon, his Newton County probation was
revoked for three years allegedly as a result of Deputy Terry’s false statements. {Id.., pp. 8, 15).
II,

STATUTE OF LIMITATIONS

Plaintiffs claims against Defendants Terry and Fields are time-barred. A plaintiff may only
bring suit under 42 U.S.C. § 1983 within the period stated in the applicable state statute of
limitations for personal injury suits. See Wallace v. Kato, 549 U.S. 384, 387 (2007). In Georgia,
the applicable period is two years after the right of action accrues. Height v. Olens, 736 F. App’x

2

Case 5:18-cv-00435-MTT-CHW Document 43 Filed 10/10/19 Page 3 of 6

249,250 (11th Cir. 2018) (citing O.C.G.A. § 9-3-33). Federal law governs when the right of action
accrues. Lovett v. Ray, 327 F.3d 1181, 1182 (11th Cir. 2003). Under federal law, the limitations
period begins to run when the plaintiff knew or should have known both (1) that he had suffered
the injury that forms the basis of his complaint and (2) who had inflicted the injury. Pyburn v.
Dole, No. 18-11446-F, 2018 WL 4859519, at *2 (11th Cir. Sept. 4, 2018) (quoting Chappell v.
Rich, 340 F.3d 1279, 1283 (11th Cir. 2003)). In other words, the right accrues when “the facts
which would support a cause of action are apparent or should be apparent to a person with a
reasonably prudent regard for his rights.” Lovett, 327 F.3d at 1182 (internal quotation marks
omitted) (quoting Rozar v. Mullis, 85 F.3d 556, 561-62 (11th Cir. 1996)). “This rule requires a
court first to identify the alleged injuries, and then to determine when [the] plaintiff[] could have
sued for them.” Rozar, 85 F.3d at 562.
The statute of limitations for false arrest and false imprisonment claims1 is governed by
Georgia’s two-year limitations period. Wallace, 549 U.S. at 387-88. The accrual of those claims,
for limitations purposes begins when th^^M^^^fals^^n^>risomiT^Tt^n(h>^/£/. at 389. A false
imprisonment ends once the victim is held pursuant to legal process, “when, for example, he is
bound over by a magistrate or arraigned on charges.” Id.
The limitations period on Plaintiffs excessive force claims against Defendant Terry began
to run on October 18, 2016, when, upon his arrest, he was allegedly handcuffed too tightly and
placed in an excessively hot and unventilated patrol car by Defendant Terry. (Doc. 1-1, pp. 3, 10).
The limitations period on Plaintiffs false arrest claim against Defendants Terry and Fields accrued
slightly later, on November 7, 2016, at the latest, when he was bound over by the state magistrate
judge to the Bibb County Superior Court. (Id., pp. 6-7). Plaintiff filed his complaint on November

1 Since an alleged false arrest is considered “a species” of a false imprisonment claim, the two torts are generally
considered together for limitations purposes as a false imprisonment claim. Wallace, 549 U.S. at 388.

3

’A

Case 5:18-cv-00435-MTT-CHW Document 43 Filed 10/10/19 Page 4 of 6

26, 2018,2 over two years after the accrual of his respective claims against Defendants Terry and
Fields. (Doc. 1). Accordingly, pursuant to Georgia’s two-year statute of limitations, Plaintiffs
claims are untimely and thus subject to dismissal.
Georgia’s renewal statute does not save Plaintiffs claims from dismissal for untimeliness.
Georgia’s renewal statute provides:
When any case has been commenced in either a state or federal court within the applicable
statute of limitations and the plaintiff discontinues or dismisses the same, it may be
recommenced in a court of this state or in a federal court either within the original
applicable period of limitations or within six months after the discontinuance or dismissal,
whichever is later, subject to the requirement of payment of costs in the original action as
required by subsection (d) of Code Section 9-11-41; provided, however, if the dismissal or
discontinuance occurs after the expiration of the applicable period of limitation, this
privilege of renewal shall be exercised only once.
O.C.G.A. § 9-2-61 (a).
Plaintiff previously filed an identical complaint in this Court on April 16, 2018.3 Banks v.
Bibb County Sheriffs Office, 5:18-cv-00139 (M.D. Ga:*2018). The case was dismissed on July 12,
2018, under 28 U.S.C. § 1915(g), known as the “three strikes provision,” since Plaintiff had already
filed at least three complaints in federal court that were dismissed as frivolous, malicious, or for
failure to state a claim. Id., Doc. 6. Plaintiff filed the instant suit on November 26, 2018, well
within the renewal statute’s six-month filing period.
Plaintiff cannot benefit from Georgia’s renewal statute for two reasons. First, the complaint
in the original suit did not constitute a “valid action.” “Whether a lawsuit can be renewed after it
has suffered a non-merits dismissal is governed by state law.” Journey-Bush v. Cty. of Macon,
Georgia, No. 5:06-CV-349 (CAR), 2007 WL 1390723, at *2 (M.D. Ga. May 9, 2007). It is well

2 Plaintiff filed his complaint with the Clerk of Court in person shortly after his release from incarceration. (Doc. 9, p.
1). Therefore, as he was no longer a prisoner at the time he filed the complaint, the prison mailbox rule, which would
have set his filing date at November 24, 2018, the date on which he executed the complaint does not apply. See Daker
v. Comm 'r, Georgia Dep t of Corr., 820 F.3d 1278, 1286 (11th Cir. 2016).
3 As Plaintiff was a prisoner at the time he filed the complaint in the original action, the filing date is recorded as the
date on which he signed the document. See Daker, 820 F.3d at 1286.

4

Case 5:18-cv-00435-MTT-CHW Document 43 Filed 10/10/19 Page 5 of 6

settled in Georgia that its renewal statute applies only to actions that are valid prior to dismissal.
See Scott v. Muscogee Cty., 949 F.2d 1122, 1123 (11th Cir. 1992) (citing Acree v. Knab, 180 Ga.
App. 174, 174 (1986)). An action is valid if it was served personally on the defendants. See Geary
v. City of Snellville, 205 F. App’x 761, 762 (11th Cir. 2006) (quoting Stephens v. Shields, 271 Ga.
App. 141, 142 (2004)). Since the original action, Banks, 5:18-cv-00139, was dismissed before
service was ordered on the defendants, the action is void and the renewal statute does not apply.
Id.
Second, Plaintiff failed to pay the court costs of the dismissed action. Georgia code section
9_1 l-41(d) provides: “If a plaintiff who has dismissed an action in any court commences an action
based upon or including the same claim against the same defendant, the plaintiff shall first pay the
court costs of the action previously dismissed.” O.C.G.A. § 9-11-41(d). An indigent plaintiff is not
excused from the cost-payment requirement unless the plaintiff obtained pauper status as to those
costs. See Hancock v. Cape, 875 F.3d 1079, 1087—88 (11th Cir. 2017). Plaintiff was denied in
forma pauperis status in the original action and informed that he would be required to pay a $400
filing fee upon refiling. Banks, 5:18-cv-00139, Doc. 6, p. 5. By refiling without pre-payment of
the requisite filing fee, Plaintiff has not met the cost-payment requirement of § 9-11-41(d). Absent
payment of those court costs, Plaintiff cannot enjoy the benefits of Georgia’s renewal statute. See
Hancock, 875 F.3d at 1088.
CONCLUSION
For failing to file within the applicable two-year statute of limitations, it is
RECOMMENDED that Defendants’ respective motions to dismiss (Docs. 31, 33) be GRANTED
and Plaintiffs claims against be DISMISSED with prejudice. See Justice v. United States, 6 F.3d
1474, 1482 n.15 (11th Cir. 1993) (holding that when an “order ‘has the effect of precluding

5

Case 5:18-CV-00435-MTT-CHW Document 43 Filed 10/10/19 Page 6 of 6

[plaintiff] from refiling his claim due to the running of the statute of limitations ... [t]he dismissal
[is] tantamount to a dismissal with prejudice.”’ (quoting Burden v. Yates, 644 F.2d 503, 505 (5th
Cir. 1981)).
Pursuant to 28 U.S.C. § 636(b)(1), the parties may serve and file written objections to this
Recommendation, or seek an extension of time to file objections, WITHIN FOURTEEN (14)
DAYS after being served with a copy thereof. The District Judge will make a de novo
determination of those portions of the Recommendation to which objection is made. All other
portions of the Recommendation may be reviewed for clear error.
The parties are further notified that, pursuant to Eleventh Circuit Rule 3-1, “[a] party failing
to object to a magistrate judge’s findings or recommendations contained in a report and
recommendation in accordance with the provisions of 28 U.S.C. § 636(b)(1) waives the right to
challenge on appeal the district court’s order based .on unobjected-to factual and legal conclusions
if the party was informed of the time period for.objecting and the consequences on appeal for
failing to object. In the absence of a proper objection, however, the court may review on appeal
for plain error if necessary in the interests of justice.”
SO ORDERED AND RECOMMENDED, this 9th day of October, 2019.

s/ Charles H. Weigle
Charles H. Weigle
United States Magistrate Judge

6

Page 1 of 2

‘CM/ECF LIVE- GAMD

Other Orders
5:18-cv-00435-MTT-CHW
BANKS v. TERRY, et al
HDS.PRO SE
U.S. District Court [LIVE AREA]
Middle District of Georgia
Notice of Electronic Filing
The following transaction was entered on 10/10/2019 at 10:04 AM EDT and filed on 10/10/2019
BANKS v. TERRY, et al
Case Name:
5:18-cv-00435-MTT-CHW
Case Number:
Filer:
Document Number: 43
Docket Text*
REPORT AND RECOMMENDATION to GRANT [31] MOTION to Dismiss Complaint re
Notice of Deficiency [1] Complaint filed by TERRY ANTHONY and GRANT [33] MOTION
TO DISMISS FOR FAILURE TO STATE A CLAIM filed by STEPHEN FIELDS ; ORDER
finding as moot [37] Motion. Ordered by US MAGISTRATE JUDGE CHARLES H WEIGLE
on 10/09/2019. (cma)
5:18-cv-00435-MTT-CHW Notice has been electronically mailed to:
VIRGIL LOUIS ADAMS

vadams@adamsjordan.com, stumer@adamsjordan.com

THOMAS F RICHARDSON

trichardson@chrkglaw.com, wwatford@chrkglaw.com

FRANCES CLAY

fclay@chrkglaw.com

DAWN M LEWIS

dlewis@adamsjordan.com

CHRISTINA CURRELI

ccurreli@chrkglaw.com

5:18-cv-00435-MTT-CHW On this date, a copy of this document, including any attachments, has
been mailed by United States Postal Service to any non CM/ECF participants as indicated below::
LAVERNE JOHNSON(Terminated)
2029 LOWE ST
MACON, GA 31204
LEROY BANKS, III
2029 LOWE STREET
MACON, GA 31204

https://gamd-ecf.sso.dcn/cgi-bin/Dispatch.pl7813952675686081

10/10/2019

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION

LEROY BANKS, III, etal.,
Plaintiffs,

)
)
)
)

)

v.
Deputy ANTHONY TERRY, ef al.

Defendants.

CASE NO. 5:18-CV-435 (MTT)

)
)
)
)
)

ORDER
United States Magistrate Judge Charles H. Weigle recommends granting
Defendants Fields’ and Terry’s motions to dismiss (Docs. 31; 33) for filing the complaint
outside the statute of limitations. Doc.43. The Plaintiff has objected.1 Doc.44.
Pursuant to 28 U.S.C. § 636(b)(1) and Federal Rule of Civil Procedure 72(b), the Court
has considered the Plaintiffs objection and has made a de novo determination of the
portions of the Recommendation to which the Plaintiff objects. The Plaintiffs objections
lack merit. The Court has reviewed the Recommendation, and the Court accepts and
adopts the findings, conclusions, and recommendations of the Magistrate Judge. The
Recommendation (Doc. 43) is ADOPTED and made the order of this Court.
Accordingly, the Plaintiffs claims are DISMISSED without prejudice.
SO ORDERED, this 31st day of October, 2019.
SI Marc T. Treadwell
MARC T. TREADWELL, JUDGE
UNITED STATES DISTRICT COURT

1 After filing his objection, the Plaintiff filed a motion to amend/correct his objection. Doc. 45. Specifically,
the Plaintiff wishes to substitute certain language on page 11 of his objection. Id. That motion (Doc. 45)
is GRANTED. However, that substituted language makes no difference in the Court’s determination.

***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States
policy permits attorneys of record and parties in a case (including pro se litigants) to
receive one free electronic copy of all documents filed electronically, if receipt is required
by law or directed by the fder. PACER access fees apply to all other users. To avoid later
charges, download a copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court [LIVE AREA]
Middle District of Georgia
Notice of Electronic Filing
The following transaction was entered on 10/31/2019 at 11:25 AM EDT and filed on 10/31/2019
BANKS v. TERRY, et al
Case Name:
5:18-cv-00435-MTT-CHW
Case Number:
Filer:
Document Number: 46
Docket Text:
ORDER GRANTING [45] Motion to Amend/Correct Objection; ADOPTING [43]
Report and Recommendations; GRANTING [31] Motion to Dismiss Complaint; and
GRANTING [33] Motion to Dismiss for Failure to State a Claim. Plaintiffs claims
are DISMISSED without prejudice. Ordered by US DISTRICT JUDGE MARC
THOMAS TREADWELL on 10/31/2019. (kat)

5:18-cv-00435-MTT-CHW Notice has been electronically mailed to:
VIRGIL LOUIS ADAMS

vadams@adamsjordan.com, sturner@adamsjordan.com

THOMAS F RICHARDSON

trichardson@chrkglaw.com, wwatford@chrkglaw.com

FRANCES CLAY

fclay@chrkglaw.com

DAWN M LEWIS

dlewis@adamsjordan.com

CHRISTINA CURRELI

ccurreli@chrkglaw.com

5:18-cv-00435-MTT-CHW On this date, a copy of this document, including any
attachments, has been mailed by United States Postal Service to any non CM/ECF
participants as indicated below::
LEROY BANKS, III
2029 LOWE STREET
MACON, GA 31204

Case 5:18-cv-00435-MTT-CHW Document 49 Filed 11/20/19 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
)
)
)
)
)
)
)
)
)
)

LEROY BANKS, III,
Plaintiff,
v.

TERRY ANTHONY, et a/.,
Defendants.

CIVIL ACTION NO. 5:18-CV-435 (MTT)

ORDER
On October 10, 2019, United States Magistrate Judge Charles Weigle
recommended granting Defendants Terry Anthony's and Stephen Fields' motions to
dismiss (Docs. 31; 33). Doc. 43.

Plaintiff Leroy Banks objected. Docs. 44; 45. On

October 31, the Court adopted the Magistrate Judge’s Recommendation and dismissed
the Plaintiffs claims. Doc. 46.

On November 7, the Plaintiff moved for reconsideration

of the Court’s October 31 order.1 Doc.48.
Pursuant to Local Rule 7.6, “Motions for Reconsideration shall not be filed as a
matter of routine practice.” M.D. Ga. L.R. 7.6. “Reconsideration is appropriate only if
the movant demonstrates (1) that there has been an intervening change in the law, (2)
that new

evidence has been discovered which was not previously available to the

parties in the exercise of due diligence, or (3) that the court made a clear error of law."
Bingham v. Nelson, 2010 WL 339806, at *1 (M.D. Ga. 2010) (quotation marks and
citation omitted).

“In order to demonstrate clear error, the party moving for

1 The Plaintiff labeled this filing as a “Motion for Reconsideration and/or Request for Certificate of
ADDealability ” Doc 48-3 at 1. However, a COA is not a prerequisite to an appeal of a 42 U S. . §
actov^Accordingly, the Plaintiff's motion for a COA (Doc. 48) is DENIED as moot.

Case 5:18-cv-00435-MTT-CHW Document 49

Filed 11/20/19 Page 2 of 3

reconsideration must do more than simply restate his prior arguments, and any
arguments which the party inadvertently failed to raise earlier are deemed waived.
McCoy v. Macon Water Auth., 966 F. Supp. 1209, 1223 (M.D. Ga. 1997).
The Plaintiff contends that the Court made a clear error dismissing his false
arrest and false imprisonment claims because they are time-barred. See generally
Docs. 43; 48-3.

This argument was not raised in his previous objections. See generally

Docs. 44; 45. “Denial of a motion for reconsideration is proper ‘when the party has
failed to articulate any reason for the failure to raise an issue at an earlier stage in the
litigation.’” Beeders v. Gulf Coast Collection Bureau, 2009 WL 3013502, at *2 (M.D.
Fla. 2009) (quoting Lussierv. Dugger, 094 F.2d 661,667 (11th Cir. 1990) (citations
omitted)). Because the Plaintiff did not raise his statute-of-limitations argument in his
objections and has not stated why he failed to argue this previously denial of his motion
is appropriate.
Even
error. The

if the Plaintiff had previously raised this argument, he cannot show clear

Plaintiff states that the Defendants falsely arrested him in October 2016 and

falsely imprisoned him until October 2018. Docs. 48-3 at 2, 48-1 at 1. He argues that
because he was imprisoned and unable to file a claim until his release in October 2018,
his claims should be tolled and his complaint was thus timely filed on November 26,
2018. See generally Docs. 48-3 (citing O.C.G.A. § 9-3-99); 1. As stated in the
Recommendation, “[tjhe accrual of those claims for limitations purposes begins when
the

alleged false imprisonment ends[,]” and false imprisonment ends when a plaintiff ‘“is

bound over by a magistrate judge or arraigned on charges."’ Doc. 43 at 3 (citing and
quoting Wallace v. Kato, 549 U.S. 384, 387-89 (2007) (citations omitted)). The Plaintiff
ii

“was bound over by the state magistrate judge to the Bibb County Superior Court on

-2-

Case 5:18-cv-00435-MTT-CHW Document 49 Filed 11/20/19 Page 3 of 3

November 7, 2016. Id. (citing Doc. 1-1 at 6-7). Pursuant to Georgia’s two-year statute
of limitations, his claims should have been brought no later than November 7, 2018, and
his claims filed on November 26, 2018 are thus time-barred. O.C.G.A. § 9-3-33.
Accordingly, the Plaintiffs motion for reconsideration (Doc. 48) is DENIED.
SO ORDERED, this 20th day of November, 2019.
s/ MarcT. Treadwell
MARC T. TREADWELL, JUDGE
UNITED STATES DISTRICT COURT

-3-

U.S. District Court [LIVE AREA]
Middle District of Georgia
Notice of Electronic Filing
The following transaction was entered on 11/20/2019 at 2:25 PM EST and filed on 11/20/2019
BANKS v. TERRY, et al
Case Name:
V1 R-cv-00435-MTT-CHW
Case Number:
Filer:
WARNING: CASE CLOSED on 11/01/2019
Document Number: 49
Docket Text:
ORDER DENYING [48] Motion for Reconsideration ; and DENYING as moot [48]
Motion for Certificate of Appealability. Ordered by US DISTRICT JUDGE MARC
THOMAS TREADWELL on 11/20/2019. (kat)
5:18-cv-00435-MTT-CHW Notice has been electronically mailed to:
VIRGIL LOUIS ADAMS

vadams@adamsjordan.com, stumer@adamsjordan.com

THOMAS F RICHARDSON

trichardson@chrkglaw.com, wwatford@chrkglaw.com

FRANCES CLAY

fclay@chrkglaw.com

DAWN M LEWIS

dlewis@adamsjordan.com

CHRISTINA CURRELI

ccurreli@chrkglaw.com

5:18-cv-00435-MTT-CHW On this date, a copy of this document, including any
attachments, has been mailed by United States Postal Service to any non CM/ECF
participants as indicated below::
LAVERNE JOHNS ON(Terminated)
2029 LOWE ST
MACON, GA 31204
LEROY BANKS, III
2029 LOWE STREET
MACON, GA 31204

,

Case 5:18-cv-00435-MTT-CHW Document 47 Filed 11/01/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
LEROY BANK, III, et al.,
Plaintiffs,

*
*

Case No. 5:18-CV-435-MTT

v.

*

DEPUTY ANTHONY TERRY, et al.„
Defendants.

*
*

JUDGMENT
Pursuant to this Court’s Orders dated June 18, 2019 and October 31, 2019 , having accepted the
recommendations of the United States Magistrate Judge, in its entirety, JUDGMENT is hereby entered
dismissing this action.
This 1st day of November, 2019.
David W. Bunt, Clerk
s/ Cheryl M. Alston, Deputy Clerk

£•

. ^

Page 1 of 2

CM/ECF LIVE- GAMD

Other Events/Judgments
5:18-cv-00435-MTT-CHW
BANKS v. TERRY, et al
HDS.PRO SE
U.S. District Court [LIVE AREA]
Middle District of Georgia
Notice of Electronic Filing
The following transaction was entered on 11/1/2019 at 2:06 PM EDT and filed on 11/1/2019
BANKS v. TERRY, et al
Case Name:
5:18-cv-00435-MTT-CHW
Case Number:
Filer:
WARNING: CASE CLOSED on 11/01/2019
Document Number: 47
Docket Text:
JUDGMENT in favor of BIBB COUNTY BOARD OF COMMISSIONERS, BIBB COUNTY
GEORGIA, ANTHONY TERRY, BENJAMIN CONKLING, C PEANALTON, DAVID DAVIS,
JOHN AND OR JANE DOE, JOHN AND OR JANE DOES, K DAVID COOKE, JR, SCOTT
CHAPMAN, STEPHEN FIELDS, T EDWARDS, TERRY ANTHONY, THOMAS C WILLIAMS
against LAVERNE JOHNSON, LEROY BANKS, III, TAVARIS JOHNSON (cma)
5:18-cv-00435-MTT-CHW Notice has been electronically mailed to:
VIRGIL LOUIS ADAMS

vadams@adamsjordan.com, stumer@adamsjordan.com

THOMAS F RICHARDSON

trichardson@chrkglaw.com, wwatford@chrkglaw.com

FRANCES CLAY

fclay@chrkglaw.com

DAWN M LEWIS

dlewis@adamsjordan.com

CHRISTINA CURRELI

ccurreli@chrkglaw.com

5:18-cv-00435-MTT-CHW On this date, a copy of this document, including any attachments, has
been mailed by United States Postal Service to any non CM/ECF participants as indicated below::
LAVERNE JOHN S ON(Terminated)
2029 LOWE ST
MACON, GA 31204
LEROY BANKS, III
2029 LOWE STREET
MACON, GA 31204

https://gamd-ecf.sso.dcn/cgi-bin/Dispatch.pl7662209167050592

11/1/2019

*

CM/ECF LIVE- GAMD

Page 2 of 2

TAVARIS JOHNSON(Terminated)
Address Unknown
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1071512857 [Date=l 1/1/2019] [FileNumber=3305137-0
] [516b0a7762512bbde6c97fad045b820618556a3551c0ccca7dl9665d9d0c7e36666
f70769984fe52cb94d643b56ab26dc5b6dD174594e49fb20fe340c71dea9]]

https://gamd-ecf.sso.dcn/cgi-bin/Dispatch.pl7662209167050592

11/1/2019

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.call.uscourts.aov

David J. Smith
Clerk of Court

September 01, 2020
Leroy Banks III
2029 LOWE ST
MACON, GA 31204
Appeal Number: 20-13266-H
Case Style: Leroy Banks, III v. Georgia State Board of Pardons, et al
District Court Docket No: 1:19-cv-05495-TCB
This Court requires all counsel to file documents electronically using the Electronic Case
Files ("ECF") system, unless exempted for good cause. Non-incarcerated pro se parties
are permitted to use the ECF system by registering for an account at www.pacer.gov.
Information and training materials related to electronic filing, are available at
www.call.uscourts.gov.
The referenced case has been docketed in this court. Please use the appellate docket number
noted above when making inquiries.
Pursuant to Rule 11(a) of the Rules Governing Section 2254 and 2255 cases for the United
States District Courts, the district court must issue or deny a certificate of appealability when it
enters a final order adverse to the applicant. The order on appeal did not cont ain such language.
We, therefore, await such a ruling from the district court.
Upon receipt of the district court's order concerning whether a certificate of appealability will be
issued, we will advise you regarding further requirements.
Every motion, petition, brief, answer, response and reply filed must contain a Certificate of
Interested Persons and Corporate Disclosure Statement (CIP). Appellants/Petitioners must file a
CIP within 14 days after the date the case or appeal is docketed in this court;
Appellees/Respondents/Intervenors/Other Parties must file a CIP within 28 days after the case
or appeal is docketed in this court, regardless of whether appellants/petitioners have filed a CIP.
See FRAP 26.1 and 11th Cir. R. 26.1-1.
On the same day a party or amicus curiae first files its paper or e-filed CIP, that filer must also
complete the court's web-based CIP at the Web-Based CIP link on the court's website. Pro se

fliers (except attorneys appearing in particular cases as pro se parties) are not required or
authorized to complete the web-based CIP.
Attorneys who wish to participate in this appeal must be admitted to the bar of this Court,
admitted for this particular proceeding pursuant to 11th Cir. R. 46-3, or admitted pro hac vice
pursuant to 11th Cir. R. 46-4. In addition, all attorneys (except court-appointed counsel) who
wish to participate in this appeal must file an Appearance of Counsel form within 14 days. The
Application for Admission to the Bar and Appearance of Counsel Form are available at
www.call.uscourts.gov. The clerk generally may not process filings from an attorney until that
attorney files an appearance form. See 11th Cir. R. 46-6(b).
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Gerald B. Frost, H/ so
Phone #: (404) 335-6182
Enclosure(s)
HAB-1 Ntc of dktg COA IFP pndg DC

Case 1:19-CV-05495-TCB Document 35 Filed 09/01/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

LEROY BANKS, III,
Petitioner,
CIVIL ACTION FILE

v.

NO. l:19-cv-5495-TCB
GEORGIA PARDON AND
PAROLE,
GEORGIA DEPARTMENT OF
COMMUNITY SERVICES, and
P.O. MR. BOWMAN,
Respondents.

ORDER
This case comes before the Court on Petitioner Leroy Banks’s
motion [29] for a certificate of appealability and application [31] to
appeal in forma pauperis.
On August 19, 2020, this Court adopted the final report and
recommendation of Magistrate Judge Russell G. Vineyard, which
recommended granting Respondent Bowman’s motion [5] to dismiss all

Case l:19-cv-05495-TCB Document 35 Filed 09/01/20 Page 2 of 2

Respondents for lack of jurisdiction and denying a certificate of
appealability (“COA”)Although Banks now seeks a certificate of appealability, the Court
denied him a COA in its previous order. Moreover, Banks has indicated
to the Court his desire that his motion for a certificate of appealability
be construed as a notice of appeal. Accordingly, his motion [29] is denied
as moot.
For good cause shown, his motion [31] to appeal in forma pauperis
is granted.
IT IS SO ORDERED this 1st day of September, 2020.

f*.
Timothy C. Batten, Sr.
United States District Judge

2

CM/ECF-GA Northern District Court

https://gand-ecf.sso.dcn/cgi-bin/Dispatch.pl76062615038975:

Orders on Motions
1:19-cv-05495-TCB Banks v. Georgia Pardon and Parole et
a] CASE CLOSED on 08/19/2020
Omonths,2254,APPEAL,CLOSED,HABEAS,SLC5.SUBMDJ

U.S. District Court
Northern District of Georgia
Notice of Electronic Filing

The following transaction was entered on 9/1/2020 at 10:52 AM EDT and filed on 9/1/2020
Case Name:
Banks v. Georgia Pardon and Parole et al
Case Number:
1:19-CV-05495-TCB
Filer:
WARNING: CASE CLOSED on 08/19/2020
Document Number: 35
Docket Text:
ORDER denying as moot [29] Motion for Certificate of Appealability; granting [31]
Application to Appeal in forma pauperis. Signed by Judge Timothy C. Batten, Sr. on
9/1/2020. (dmb)

l:19-cv-05495-TCB Notice has been electronically mailed to:
Paula K. Smith

psmith@law.ga.gov

l:19-cv-05495-TCB Notice has been delivered by other means to:
Leroy Banks, III
2029 Lowe Street
Macon, GA 31204
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=l 060868753 [Date=9/l/2020] [FileNumber=l 1142975-0
] [6d0498dab802bf5417ae7ee6fl2d30d4e5ca2f62494915calf25bfdfe718e28f97f
Cd9b872a52746849309ecb06b79060864c09d9fbe6a87adf9a4e57db323fl]]

Additional material
from this filing is
available in the
Clerk's Office.

